Audit Report




OIG-09-042
SAFETY AND SOUNDNESS: Material Loss Review
of National Bank of Commerce
August 6, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report...............................................................................................           1

    Results in Brief ..........................................................................................       2

    Causes of National Bank of Commerce’s Failure ............................................                        3
      Significant Losses Incurred Due to Devaluation of Investments
        in GSE Securities ...............................................................................             3
      NBC’s Investments Were Concentrated in GSE Securities ..........................                                4
      NBC Was Unable to Prevent Its Failure ....................................................                      6

    OCC’s Supervision of National Bank of Commerce ........................................                           7
      OCC’s Supervision of NBC Was Appropriate ............................................                           8
      OCC Transferred Supervision of NBC to Its Special Supervision
        Division and Appropriately Used PCA ...................................................                      9
      Other Matters .......................................................................................         11
        Recently Issued OCC Guidance on Investment Securities ........................                              11
        Examination Workpapers ....................................................................                 12

    Recommendations .....................................................................................           13

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                    15
    Appendix     2:      Background........................................................................         18
    Appendix     3:      Glossary ...........................................................................       21
    Appendix     4:      Chronology of Significant Events ..........................................                26
    Appendix     5:      OCC NBC Examinations and Enforcement Actions ..................                            31
    Appendix     6:      Prior OIG Material Loss Review Recommendations ..................                          33
    Appendix     7:      Management Response .......................................................                34
    Appendix     8:      Major Contributors to This Report .........................................                36
    Appendix     9:      Report Distribution ..............................................................         37

Abbreviations

    CFP                  contingency funding plan
    CPP                  Capital Purchase Program
    CRP                  capital restoration plan
    EESA                 Emergency Economic Stabilization Act of 2008
    FDIC                 Federal Deposit Insurance Corporation
    GSE                  Government-Sponsored Enterprises


                         Material Loss Review of National Bank of Commerce                                        Page i
                         (OIG-09-042)
IT         information technology
MRA        matters requiring attention
NBC        National Bank of Commerce
OIG        Department of the Treasury Office of Inspector General
OCC        Office of the Comptroller of the Currency
PCA        Prompt Corrective Action
ROE        report of examination
TARP       Troubled Asset Relief Program




       Material Loss Review of National Bank of Commerce            Page ii
       (OIG-09-042)
                                                                        Audit
OIG
The Department of the Treasury
                                                                        Report
Office of Inspector General




                  August 6, 2009

                  John C. Dugan
                  Comptroller of the Currency

                  This report presents the results of our review of the failure of
                  National Bank of Commerce (NBC), of Berkeley, Illinois, and of the
                  Office of the Comptroller of the Currency’s (OCC) supervision of
                  the institution. Our review is mandated under section 38(k) of the
                  Federal Deposit Insurance Act, as amended. OCC closed NBC and
                  appointed the Federal Deposit Insurance Corporation (FDIC) as
                  receiver on January 16, 2009. As of June 30, 2009, FDIC
                  estimated that the loss to the Deposit Insurance Fund would be
                  $92.5 million because of NBC’s failure.

                  Section 38(k) requires that we determine why the failure of NBC
                  resulted in a material loss to the insurance fund; review OCC’s
                  supervision of NBC, including implementation of the Prompt
                  Corrective Action (PCA) provisions of section 38; and make
                  recommendations for preventing such a loss in the future.
                  Accordingly, we reviewed the supervisory files and interviewed key
                  officials. We conducted fieldwork from February 2009 through
                  June 2009 at OCC’s headquarters in Washington, D.C. and field
                  office in Chicago, Illinois, and at FDIC’s Division of Resolutions and
                  Receiverships in Dallas, Texas.

                  Appendix 1 contains a more detailed description of our objectives,
                  scope, and methodology. Appendix 2 contains background
                  information on NBC’s history and OCC’s supervision processes.
                  Appendix 3 provides a glossary of terms used in this report. The
                  terms are underlined and hyperlinked to the glossary where first
                  used in the report. Appendix 4 contains a chronology of significant
                  events related to NBC’s history and OCC’s supervision of the
                  institution. Appendix 5 provides bank examination results and
                  information on enforcement actions.


                  Material Loss Review of National Bank of Commerce               Page 1
                  (OIG-09-042)
Results in Brief
                       The primary cause of NBC‘s failure was its significant losses from
                       preferred stock holdings in Federal National Mortgage Association
                       (Fannie Mae) and Federal Home Loan Mortgage Corporation
                       (Freddie Mac), (also referred to as Government-Sponsored
                       Enterprises (GSE) securities in this report). These losses depleted
                       NBC’s capital and strained its liquidity. In the end, after several
                       attempts, NBC was unable to raise capital or obtain financial
                       assistance to prevent its closure.

                       OCC conducted timely and regular examinations of NBC and
                       provided oversight through off-site monitoring. The scope of the
                       examinations appeared comprehensive as indicated by the reports
                       of examinations (ROE), although workpaper evidence supporting
                       the examination procedures performed was somewhat limited. OCC
                       used its authority under PCA in an appropriate and timely manner.
                       Also, OCC’s Special Supervision Division took appropriate actions
                       after oversight of NBC was transferred to it.

                       All things considered, we believe that NBC acted in good faith
                       when it invested in the GSE securities. Additionally, we have no
                       reason to fault OCC’s supervision of the institution as it relates to
                       NBC’s investment practices. Current law and regulatory standards
                       permit banks to purchase GSE securities without limitation. 1

                       What happened to Fannie Mae and Freddie Mac during the current
                       economic crisis, including the rapid decline in the value of their
                       securities, was unprecedented. Retrospectively, the lesson to be
                       taken from the NBC material loss is that banks and regulators need
                       to be cognizant that securities that are not backed by the full faith
                       and credit of the U.S. government do entail risk, and high
                       concentrations of such holdings elevate that risk. That risk was
                       clearly underscored by NBC’s failure.

                       We are recommending that OCC (1) conduct a review of
                       investments held by national banks for any potential high risk


1
  12 U.S.C. 24 (Seventh). OCC issued implementing guidance in 12 C.F.R. Part 1, Investment
Securities. Banks that are well capitalized may also purchase other securities, such as municipal bonds,
in unlimited amounts.

                       Material Loss Review of National Bank of Commerce                           Page 2
                       (OIG-09-042)
                      concentrations and take appropriate supervisory action, and
                      (2) reassess examination guidance regarding investment securities,
                      including GSE securities.

                      In a written response, OCC stated that its ongoing supervisory
                      activity will identify and address other concentrations in high-risk
                      securities. OCC also stated that it will issue a Supervisory
                      Memorandum containing supplemental examiner guidance on
                      investment securities risk management practices by September 1,
                      2009. The actions taken and planned by OCC are responsive to our
                      recommendations. The response is provided as appendix 7.


Causes of National Bank of Commerce’s Failure
                      Significant Losses Incurred Due to Devaluation of Investments in
                      GSE Securities

                      Starting in May 2003 through November 2007, NBC made a
                      number of purchases of GSE securities for investment purposes.
                      The book value of these investments totaled $98.2 million as of
                      June 30, 2008. After the Federal Housing Finance Agency placed
                      Fannie Mae and Freddie Mac into conservatorship on September 7,
                      2008, the market value of the GSE preferred stock owned by the
                      bank declined significantly, to approximately $4.5 million as of
                      September 30, 2008. 2 The loss in market value of its holdings in
                      these securities was the primary cause of NBC’s failure.

                      Table 1 shows NBC’s total purchases in GSE securities for calendar
                      years 2003 through 2007.



2
  Fannie Mae and Freddie Mac were created to provide stability in the secondary mortgage market and
promote access to mortgage credit throughout the United States. By purchasing some mortgages and
guaranteeing others, Fannie Mae and Freddie Mac help bring the liquidity of global capital markets to
local banks and other financial institutions. These two GSEs operate solely in the mortgage market and
were therefore very much exposed to fluctuations in the housing market. When placed in
conservatorship on September 7, 2008, the Federal Housing Finance Agency suspended dividends on
the GSEs’ stock. The common and preferred stock shares, however, remained outstanding. At the same
time, Treasury entered into Senior Preferred Stock Purchase Agreements with the GSEs to ensure each
maintained a positive net worth. In exchange, Treasury received senior preferred stock in the GSEs as
well as warrants for the purchase of common stock of the GSEs. The warrants represent 79.9 percent
of each GSE’s common stock on a fully-diluted basis.

                      Material Loss Review of National Bank of Commerce                         Page 3
                      (OIG-09-042)
Table 1. Total Purchases in GSE Securities for Calendar Years 2003-2007
                                    Amount
               Year               purchased
            purchased              (millions)
               2003                    $11.0
               2004                       5.4
               2006                       8.3
               2007                      73.5
               Total                     98.2
          Source: OCC’s Chicago Field Office
          based on NBC’s Inventory Reports

As of September 30, 2008, the bank recognized $93.7 million in
other-than-temporary impairment charges associated with the
decline in value of its GSE securities holdings. Of this impairment
charge, approximately $57.4 million was recorded as a loss on the
bank’s income statement and approximately $36.3 million was
recorded as a deferred tax asset on the bank’s balance sheet.

The devaluation of NBC’s Fannie Mae and Freddie Mac stock
holdings essentially eliminated the bank’s regulatory capital and
strained its sources of liquidity. As of June 30, 2008, the bank had
$32.4 million in Tier 1 capital and was well capitalized for PCA
purposes. Three months later, the bank’s Tier 1 capital fell to
negative $39 million. At that time, the bank’s total risk-based
capital was negative 15.59 percent. A bank with a total risk-based
capital ratio below 8 percent is considered to be undercapitalized.
Also, as of September 30, 2008, the bank’s tangible equity ratio
was negative 10.26 percent, well below the 2 percent threshold
that defines a bank to be critically undercapitalized for PCA
purposes. Therefore, the bank was critically undercapitalized.

NBC’s Investments Were Concentrated in GSE Securities

NBC’s holdings in GSE securities represented 74 percent of its total
investments and constituted approximately 278 percent of the
bank’s Tier 1 capital as of September 30, 2007. Figure 1 shows
NBC’s investments in GSE securities compared to its Tier 1 Capital.




Material Loss Review of National Bank of Commerce                         Page 4
(OIG-09-042)
          Figure1. NBC’s Investment in GSE Securities as a Percentage of Tier 1 Capital
                                          300                                                                                    278

                                          250
             Tier 1 Capital  Percentage




                                          200


                                          150


                                          100                                                                            77
                                                                             67                    61
                                                       57
                                           50


                                            0
                                                     2003                   2004                  2005                  2006    2007

                                                Source: OIG analysis of NBC’s Reports of Condition and Income (call reports)


                                                While NBC had a high concentration in GSEs at the time, statute
                                                and regulatory standards allow banks to purchase investment
                                                securities issued by Fannie Mae and Freddie Mac without
                                                limitation. Based on the standards, NBC acted in good faith in
                                                investing in the GSEs. NBC’s investment policy, Portfolio
                                                Diversifications/Concentration of Risk, adopted by the board of
                                                directors in March 2007, stated that “while the various federal
                                                agency securities not all bear the explicit guarantee of the U.S.
                                                Treasury, it is implicitly deemed unthinkable that the U.S.
                                                government would allow any of its agencies to default on
                                                outstanding debt.” 3 For this reason, the policy stated that the bank
                                                would treat the Fannie Mae and Freddie Mac securities the same as
                                                U.S. Treasury securities and therefore, did not require a limitation.

                                                In the end, however, the concentration of its holdings in GSE
                                                securities exposed NBC to greater risk and eventually was the
                                                contributing factor to its failure. In retrospect, banks and regulators
                                                need to be cognizant that securities that are not backed by the full
                                                faith and credit of the U.S. government do entail risk, and high
                                                concentrations of such holdings elevate that risk.


3
    National Bank of Commerce, Investment Policy (March 2007).

                                                Material Loss Review of National Bank of Commerce                              Page 5
                                                (OIG-09-042)
NBC Was Unable to Prevent Its Failure

During a targeted examination in October 2008, OCC examiners
estimated that NBC would need approximately $55 million to be
adequately capitalized. Examiners observed that the bank’s ability
to pay obligations, including depositors’ demands, could affect the
bank’s viability. In a PCA notice dated November 3, 2008, OCC
informed the bank that it was critically undercapitalized. Under
PCA, the bank was prohibited from, among other things,
(1) entering into any material transaction other than in the usual
course of business, (2) extending credit for any highly leveraged
transactions, (3) amending the bank’s charter or bylaws,
(4) making any change in accounting methods, (5) paying
excessive compensation or bonuses, (6) paying interest rates that
significantly exceed the prevailing rates of interest, and (7) making
any principal or interest payments on subordinated debt. OCC
further informed the bank that it was also prohibited from
accepting, renewing, or rolling over brokered deposits and
restricted the effective yield offered on insured deposits.

To further exacerbate NBC’s already tenable situation, it also did
not have any available lines of credit. A $12 million unsecured line
of credit with another bank and a secured $30 million line of credit
at the Federal Home Loan Bank had been closed by both
institutions in September 2008. At that time, NBC owed $10
million to the Federal Home Loan Bank on the closed line. NBC did
seek a new $15 million line of credit from a state-chartered
financial institution, but was unsuccessful.

In an attempt to regain adequately capitalized status, NBC made
multiple requests for federal financial assistance. Our review of
OCC documents identified the following requests:

    •   NBC requested Emergency Economic Stabilization Act of
        2008 (EESA) assistance, first on October 6, 2008, and again
        on October 17, 2008. Specifically, NBC asked Treasury to
        buy its Fannie Mae and Freddie Mac stock for $44.5 million
        and requested any and all applicable assistance available.
        Treasury’s Troubled Asset Relief Program’s (TARP) Capital
        Purchase Program (CPP) Investment Committee denied
        NBC’s request.


Material Loss Review of National Bank of Commerce               Page 6
(OIG-09-042)
                          •   On October 24, 2008, NBC’s holding company, Commerce
                              Bancorp Inc., requested from the Federal Reserve Bank $8.7
                              million in assistance from the TARP CPP. The Federal
                              Reserve Bank considered this request to be part of the earlier
                              requests for a federal purchase of the bank’s Fannie Mae and
                              Freddie Mac GSE securities. On January 9, 2009, Treasury
                              determined that the bank was not qualified for CPP
                              assistance.
                          •   On November 18, 2008, NBC requested financial assistance
                              from FDIC, asserting that the financial assistance NBC
                              requested would be less than the cost of NBC’s potential
                              receivership. FDIC denied NBC’s request for assistance.
                          •   On November 21, 2008, the bank requested a capital
                              infusion of $42.8 million from Treasury, pursuant to EESA.
                              Treasury denied the bank’s request.
                          •   On January 7, 2009, the bank sought financial assistance
                              from FDIC. FDIC denied the bank’s request because its
                              proposal provided that FDIC’s assistance would be used
                              inappropriately to benefit preexisting shareholders.

                      In short, NBC was unable to raise the capital necessary to restore
                      itself to adequately capitalized and did not submit an acceptable
                      capital restoration plan (CRP). 4 Therefore, OCC closed the bank on
                      January 16, 2009.

OCC’s Supervision of National Bank of Commerce
                      OCC conducted timely and regular examinations of NBC and
                      provided oversight through off-site monitoring. The scope of OCC’s
                      examinations appeared comprehensive, although workpaper
                      evidence supporting the examination procedures performed was
                      somewhat limited. We conclude, however, that OCC’s supervision
                      of NBC was appropriate. OCC transferred supervision of NBC to its
                      Special Supervision Division in September 2008. OCC also used its
                      authority under PCA appropriately when it reclassified NBC’s
                      capital level, restricted the bank’s activities, and instructed the
                      bank to submit an acceptable capital restoration plan.

4
 On December 16, 2008, OCC did not accept the capital restoration plan submitted by NBC because
the plan was dependent on government assistance to restore capital. NBC’s applications for government
assistance submitted during October and November 2008 were denied.

                      Material Loss Review of National Bank of Commerce                        Page 7
                      (OIG-09-042)
               Table 2 summarizes the results of OCC’s full-scope on-site
               examinations, a targeted examination, and an enforcement action.
               Appendix 5 details matters requiring attention (MRA), other
               recommendations, and suggestions made by OCC as part of its
               examinations of NBC.

Table 2. Summary of OCC’s NBC Examinations and Enforcement Actions

                                                        Examination Results
                                                          Number of
Date            Assets         CAMELS            Number   recommendations
starteda        (millions)b    rating            of MRAs or suggestions     Enforcement actions
4/4/2005              $389     2/212322               0                 10             None
8/14/2006             $398     2/212222               0                 6              None
12/18/2007            $423     2/222222               3                 0              None
                                                                                       PCA Notice of
                                                                                       Critically
                                                                                       Undercapitalized
10/14/2008c           $459     5/554554               0                  0             issued 11/3/2008
   Source: OCC ROEs and PCA notice.
   a
     From 2005 to 2007, NBC was on an 18-month examination cycle. An examination cycle begins with the
   transmittal of the ROE. See appendix 2, Types of Examinations Conducted by OCC, for additional information
   about OCC examinations.
   b
     Asset amounts are as of 12/31 except for the last examination which is as of 9/30/08.
   c
     The October 14, 2008, targeted examination was directed by the Special Supervision Division.

               OCC’s Supervision of NBC Was Appropriate

               During our review, we asked examiners why they did not express
               supervisory concern over NBC’s increasing investments in GSE
               securities. Current law and regulatory standards established in 12
               U.S.C. § 24 (Seventh) and OCC’s 12 C.F.R §1.3 were the main
               reasons cited by the examiners for not challenging NBC’s
               investment practices.

               One examiner stated that he would hesitate to tell a bank not to
               purchase GSE securities or raise a concentration concern because
               of the implied backing by the U.S. government. Two examiners
               told us that, in hindsight, it would have been a good idea to either
               mention the concentrations to management or require the bank to
               monitor its investment portfolio more closely. We accept that at
               the time NBC made the purchases of the GSE securities, there
               would have been little basis to criticize the bank given the
               regulatory standards and perception of minimal risk associated with

               Material Loss Review of National Bank of Commerce                                          Page 8
               (OIG-09-042)
these holdings. Therefore, we do not fault OCC for not taking issue
with NBC’s investment practices.

While the circumstances surrounding the collapse of Fannie Mae
and Freddie Mac were unprecedented, the circumstances
underscore that high concentrations in supposedly safe
investments that are not explicitly backed by the full faith and
credit of the U.S. government do nevertheless pose risk that must
be managed. Accordingly, we believe that going forward OCC
should reassess examination guidance regarding investments in
GSE securities.

OCC officials told us they are working to revise their guidance to
the industry regarding GSEs. Furthermore, they told us that they
will also be revising the investment securities handbook.

OCC Transferred Supervision of NBC to Its Special Supervision
Division and Appropriately Used PCA

On September 11, 2008, shortly after Fannie Mae and Freddie Mac
were placed into conservatorship, OCC’s Central District Deputy
Comptroller and the Director of Special Supervision mutually agreed
that the bank be transferred to OCC’s Special Supervision Division.
OCC decided this because of NBC’s investment concentration in
Fannie Mae and Freddie Mac preferred stock, and the anticipated
impact of the stocks’ decline in value on the bank’s capital.

OCC’s Examiner’s Guide to Problem Bank Identification,
Rehabilitation, and Resolution provides guidance for banks
supervised by the Special Supervision Division. According to the
guide, the Special Supervision Division supervises the resolution of
critical problem banks through rehabilitation or through other
resolution processes. Ideally, the Special Supervision Division
assumes supervisory responsibility of a deteriorating problem bank
prior to its becoming a composite 5 CAMELS-rated entity.

The Special Supervision Division directed the overall supervision of
NBC from September 2008 until its closure on January 16, 2009.
During the week of October 14, 2008, the Special Supervision
Division led a targeted examination of NBC with assigned field
examiners working under the direction of a Special Supervision


Material Loss Review of National Bank of Commerce              Page 9
(OIG-09-042)
                      Division analyst. During the review, examiners concluded that the
                      bank’s loans did not pose a risk to the bank’s viability; however,
                      because of the significant decline in the value of its investments in
                      GSE securities and related concerns over the bank’s liquidity,
                      NBC’s viability could be at risk. 5 In addition to formally notifying
                      the bank on November 3, 2008, that it was critically
                      undercapitalized, the Director of the Special Supervision Division
                      told the bank that its composite CAMELS rating had been
                      downgraded to 5 and instructed the bank to submit an acceptable
                      capital restoration plan.

                      On November 14, 2008, NBC submitted a capital restoration plan
                      that relied on financial assistance of approximately $42.8 million
                      from Treasury or the FDIC, along with a commitment from the
                      bank’s board to raise $10 million following the receipt of federal
                      assistance to restore the bank’s capital to adequately capitalized.
                      OCC deemed NBC’s capital restoration plan unacceptable on
                      December 16, 2008, due to its dependence on receiving
                      government assistance to restore capital and because it was based
                      on events that had not occurred, were unlikely to occur, and were
                      not within the bank’s control.

                      When the bank had no viable plan to restore capital, on
                      January 15, 2009, the Deputy Comptroller and Director of the
                      Special Supervision Division recommended that OCC appoint the
                      FDIC as receiver of NBC. We conclude that the Special Supervision
                      Division took appropriate and timely supervisory actions. We also
                      conclude that OCC used its authority under PCA in an appropriate
                      and timely manner.

                      Without reasonable prospect of NBC becoming adequately
                      capitalized, OCC continued preparing for the closure and
                      appointment of a receiver for the bank. OCC closed NBC on
                      January 16, 2009, and appointed FDIC receiver 78 days after NBC
                      was deemed critically undercapitalized. 6



5
  Our review of the examination workpapers did not reveal any unsafe or unsound conditions with the
bank’s loan portfolio and lending practices.
6
  In accordance with 12 U.S.C. §1831(h)(3)(A), OCC must appoint a receiver within 90 days after any
national bank becomes critically undercapitalized.

                      Material Loss Review of National Bank of Commerce                      Page 10
                      (OIG-09-042)
                        Other Matters

                        Recently Issued OCC Guidance on Investment Securities

                        OCC did not conduct a lessons-learned review of the NBC failure.
                        According to OCC management, the issue with the bank’s
                        investment in GSE securities that led to its failure was
                        straightforward and an internal review would not have revealed
                        additional information important to communicate to examiners.

                        OCC issued a bulletin in May 2009 regarding investment securities
                        and risk management. 7 The new bulletin highlights lessons-learned
                        from the current market disruption and re-emphasizes the key
                        principles discussed in the following OCC guidance: OCC 98-20,
                        Supervisory Policy Statement on Investment Securities and End-
                        User Derivatives Activities, OCC 2002-19, Unsafe and Unsound
                        Investment Portfolio Practices. Also, the bulletin reminds bank
                        management of the important liquidity objectives of a bank’s
                        investment portfolio and the supervisory risk management
                        expectations associated with investment portfolio holdings of
                        structured investment securities.

                        OCC cited the following lessons learned in the bulletin:

                            •   Undue Reliance on Credit Ratings--Bank management should
                                be very careful when using credit ratings in making
                                investment portfolio decisions and should be particularly
                                diligent when purchasing structured securities. Bank
                                managers should understand the basis for the rating and
                                should supplement credit ratings with the bank’s own
                                internal analysis. The more complex a security’s structure,
                                the more due diligence should be done, even for the highly
                                rated securities.

                            •   Limited Investment Portfolio Liquidity--Banks have
                                traditionally owned investment securities to support liquidity
                                needs, to achieve asset/liability objectives, to provide
                                collateral and diversify bank earnings. The bulletin notes that
                                in recent years, the investment portfolio earning’s objectives


7
    OCC Bulletin 2009-15, Investment Securities, (May 22, 2009).

                        Material Loss Review of National Bank of Commerce                Page 11
                        (OIG-09-042)
                              at many national banks took priority over liquidity objectives,
                              often resulting in bank management purchasing structured
                              investment securities that offered a high yield as well as a
                              high credit rating. While portfolio yield is an important
                              consideration, the bulletin cautions that yield generation
                              should not be the primary motivation when making
                              investment decisions. Bank management should ensure that
                              earnings pressures do not override liquidity needs when
                              making decisions about the composition of the investment
                              portfolio.

                          •   Inadequate Valuation of Structured Products--OCC expects
                              national banks to maintain robust governance processes to
                              ensure compliance with regulatory reporting requirements
                              and fair value accounting guidelines. If a bank is holding or
                              purchasing structured investment securities, bank
                              management should ensure that its valuation process allows
                              for a thorough assessment of projected cash flows and that
                              the probability of default and loss, given default
                              assumptions, is reasonable. National banks should fully
                              understand and effectively manage the risk inherent in their
                              investment activities. Failure to maintain an adequate
                              investment portfolio risk management process, which
                              includes understanding key portfolio risks, is considered an
                              unsafe and unsound practice.

                      While the new bulletin does not address investments in GSE
                      securities directly, we believe it provides useful and appropriate
                      guidance to banks in managing investment activities.

                      Examination Workpapers

                      During our review of the OCC examiners’ workpapers for NBC, we
                      found documentation was lacking to support some of the
                      examination steps, objectives, and sub-objectives for the 2005 and
                      2007 examinations. We included a similar finding in our February
                      2009 material loss review of the failed First National Bank of
                      Nevada and First Heritage Bank, National Association. 8 OCC

8
 OIG, Safety and Soundness: Material Loss Review of First National Bank of Nevada and First Heritage
Bank, National Association, OIG-09-033 (Feb. 27, 2009).


                      Material Loss Review of National Bank of Commerce                       Page 12
                      (OIG-09-042)
           concurred with our recommendation in that report to re-emphasize
           to examiners OCC’s policy on the preparation of supervision
           workpapers. This is an area that warrants continued attention by
           OCC management.

Recommendations
           Our material loss review of National Bank of Commerce is the third
           such review we have performed of a failed OCC-regulated financial
           institution during the current financial crisis. Appendix 6 lists the
           other two material loss reviews and our associated
           recommendations. OCC management agreed with the prior
           recommendations and has taken action or is taking corrective
           actions to address them.

           As a result of our material loss review of NBC, we recommend that
           the Comptroller of the Currency do the following:

           1. Conduct a review of investments by national banks for any
              potential high risk concentrations and take appropriate
              supervisory action.

               Management Response

               During the months leading up to the government intervention at
               Fannie Mae and Freddie Mac, OCC proactively used call report
               financial data to identify banks with concentrations in GSEs.
               Banks with high exposure relative to their capital were identified
               and supervisory offices were provided with the information to
               investigate further and take appropriate supervisory action. This
               process is embedded in ongoing supervisory activities and will
               be used on an ongoing basis to identify and address other
               concentrations in high-risk securities.

               OIG Comment

               OCC has taken steps to address the intent of our
               recommendation.

           2. Reassess examination guidance regarding investment securities,
              including GSE securities.

           Material Loss Review of National Bank of Commerce               Page 13
           (OIG-09-042)
      Management Response

      OCC plans to issue a Supervisory Memorandum containing
      supplemental examiner guidance on investment securities risk
      management practices to all OCC examining staff no later than
      September 1, 2009.

      OIG Comment

      To the extent that the planned supplemental guidance also
      addresses GSE securities, OCC’s planned action meets the
      intent of our recommendation.

                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-6512 or Delores V. Dabney, Audit
Manager, at (202) 927-5941. Major contributors to this report are
listed in appendix 8.



/s/


Michael J. Maloney
Audit Director




Material Loss Review of National Bank of Commerce            Page 14
(OIG-09-042)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted a material loss review of National Bank of
                        Commerce (NBC) of Berkeley, Illinois, in response to our mandate
                        under section 38(k) of the Federal Deposit Insurance Act, as
                        amended. 9 This section provides that if the deposit insurance fund
                        incurs a material loss with respect to an insured depository
                        institution, the inspector general for the appropriate federal banking
                        agency is to prepare a report to the agency, that

                        •   ascertains why the institution’s problems resulted in a material
                            loss to the insurance fund;
                        •   reviews the agency’s supervision of the institution, including its
                            implementation of the Prompt Corrective Action provisions of
                            section 38; and
                        •   makes recommendations for preventing any such loss in the
                            future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within 6
                        months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of NBC based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of June 30, 2009, FDIC estimated that the loss to the Deposit
                        Insurance Fund would be $92.5 million because of NBC’s failure.

                        To accomplish our review, we conducted fieldwork at the Office of
                        the Comptroller of the Currency’s (OCC) headquarters in
                        Washington, D.C. and its field office in Chicago, Illinois. We
                        interviewed headquarters, field, and district office personnel. We
                        performed work at FDIC’s Division of Resolutions and
                        Receiverships in Dallas, Texas, and interviewed personnel involved
                        in NBC’s closing and receivership. We also interviewed FDIC’s
                        Division of Supervision and Consumer Protection personnel. We
                        conducted fieldwork from February 2009 through June 2009.

                        To assess the adequacy of OCC’s supervision of NBC, we
                        determined (1) when OCC first identified NBC’s safety and


9
    12 U.S.C. § 1831o(k).

                        Material Loss Review of National Bank of Commerce               Page 15
                        (OIG-09-042)
Appendix 1
Objectives, Scope, and Methodology




soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also assessed whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

    •   We determined that the time period covered by our audit
        would be from April 2005 through NBC’s failure on
        January 16, 2009. This period included three safety and
        soundness examinations prior to OCC identifying NBC as a
        critically undercapitalized institution and assigning it a
        composite CAMELS rating of 5.

    •   We reviewed OCC’s supervisory files and records for NBC
        from 2005 through 2008. We analyzed examination reports,
        supporting workpapers, and related supervisory
        correspondence. We performed these analyses to gain an
        understanding of the problems identified, the approach and
        methodology OCC used to assess the bank’s condition, and
        the regulatory action OCC used to compel bank management
        to address deficient conditions. We did not conduct an
        independent or separate detailed review of the external
        auditor’s work or associated workpapers other than those
        incidentally available through the supervisory files.

    •   We interviewed and discussed various aspects of the
        supervision of NBC with OCC officials, examiners, and an
        attorney to obtain their perspective on the bank’s condition
        and the scope of the examinations. We also interviewed
        FDIC officials responsible for monitoring NBC for federal
        deposit insurance purposes.

    •   We interviewed FDIC’s Division of Resolutions and
        Receiverships personnel involved in the receivership process,
        which was conducted before and after NBC’s closure and
        appointment of a receiver.




Material Loss Review of National Bank of Commerce              Page 16
(OIG-09-042)
Appendix 1
Objectives, Scope, and Methodology




    •   We assessed OCC’s actions based on its internal guidance
        and requirements of the Federal Deposit Insurance Act, at 12
        U.S.C. § 1811 et seq.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of National Bank of Commerce             Page 17
(OIG-09-042)
Appendix 2
Background




National Bank of Commerce History

The National Bank of Commerce (NBC) was a federally chartered
national bank, the deposits of which were insured by the Federal
Deposit Insurance Corporation (FDIC). NBC was a wholly owned
subsidiary of Commerce Bancorp, Inc., a one bank holding
company. Five individuals and the estate of another individual
owned approximately 42 percent of the holding company.

NBC opened for business in Illinois and became subject to Office of
the Comptroller of the Currency (OCC) supervision on
September 1, 1984. Its predecessor had incorporated in 1966 as a
state-chartered bank. NBC’s main office was in Berkeley, Illinois,
with a branch office in Addison, Illinois. NBC provided deposit
accounts, cash management products, merchant processing, and
personal and business loans.

Appendix 4 contains a chronology of significant events regarding
NBC.

Types of Examinations Conducted by OCC

OCC conducts various types of examinations including full-scope
on-site examinations. A full-scope examination is a combined
examination of the institution’s safety and soundness, compliance
with various regulations, and information technology (IT) systems.
The safety and soundness portion of the examination includes a
review and evaluation of capital adequacy, asset quality,
management administration, earnings, liquidity, and sensitivity to
the market. The IT portion of the full-scope examination evaluates
the overall performance of IT within the institution and the
institution’s ability to identify, measure, monitor, and control
technology-related risks. The compliance portion of the
examination includes an assessment of how well the bank manages
compliance with various consumer protection regulations, such as
Truth in Lending, Truth in Savings, and the Bank Secrecy Act. A
targeted examination is any examination that does not fulfill all the
statutory requirements of a full-scope examination.

OCC must schedule full-scope, on-site examinations of insured
banks once during either a 12-month or 18-month cycle. The 12-

Material Loss Review of National Bank of Commerce             Page 18
(OIG-09-042)
Appendix 2
Background




month cycle should continue until the bank’s management has
demonstrated its ability to operate the institution in a safe and
sound manner and satisfied all conditions imposed at the time of
approval. OCC may extend the 12-month requirement to 18
months if the bank:

    • has total assets of less than $500 million;
    • is well capitalized;
    • at its most recent examination received a management
      component rating of 1 or 2;
    • is not currently subject to a formal enforcement proceeding
      order by the FDIC, OCC, or Federal Reserve System; and
    • has not undergone a change in control during the preceding
      12-month period since completion of the last full-scope, on-
      site examination.

During a full-scope examination, examiners conduct an on-site
examination and rate all CAMELS components. OCC then assigns
the bank a composite rating based on its assessment of the overall
condition and level of supervisory concern.

Enforcement Actions Available to OCC

OCC performs various examinations of banks resulting in the
issuance of reports of examinations (ROE) identifying areas of
concern. OCC uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions

OCC may use informal enforcement actions when a bank’s overall
condition is sound, but it is necessary to obtain written
commitments from a bank’s board of directors or management to
ensure it will correct problems and weaknesses. Informal
enforcement actions provide a bank with more explicit guidance
and direction than a ROE normally contains, but are generally not
legally binding. Informal enforcement actions include commitment
letters, memoranda of understanding, and safety and soundness
plans.



Material Loss Review of National Bank of Commerce             Page 19
(OIG-09-042)
                        Appendix 2
                        Background




                        Formal Enforcement Actions

                        Formal enforcement actions are authorized by statute, generally
                        more severe than informal actions, and disclosed to the public.
                        Formal enforcement actions are enforceable under the Federal
                        Deposit Insurance Act. They are appropriate when a bank has
                        significant problems, especially when there is a threat of harm to
                        the bank, depositors, or the public. OCC is to use formal
                        enforcement actions when informal actions are considered
                        inadequate, ineffective, or otherwise unlikely to influence bank
                        management and board members to correct identified problems and
                        concerns in the bank’s operations. Because formal actions are
                        enforceable, OCC can assess civil money penalties against banks
                        and individuals for noncompliance with a formal agreement or final
                        order. OCC can also request a federal court to require the bank to
                        comply with an order. Formal enforcement actions include consent
                        orders, cease and desist orders, formal written agreements, and
                        Prompt Corrective Action directives.

                        OCC Enforcement Guidelines

                        Determining whether to use informal action or formal action include
                        the following:

                        •   the overall condition of the bank;

                        •   the nature, extent, and severity of the bank’s problems and
                            weaknesses;

                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and

                        •   the existence of previously identified but unaddressed problems
                            or weaknesses. 10




10
     OCC Policies and Procedures Manual 5310-3 (Rev).

                        Material Loss Review of National Bank of Commerce            Page 20
                        (OIG-09-042)
                    Appendix 3
                    Glossary


Brokered Deposits                   Any deposit that is obtained, directly or indirectly,
                                    from a deposit broker. Under 12 U.S.C. 1831f and 12
                                    C.F.R. 337.6, the use of brokered deposits is limited
                                    to well-capitalized insured depository institutions and,
                                    with a waiver from the Federal Deposit Insurance
                                    Corporation, to adequately capitalized institutions.
                                    Undercapitalized institutions are not permitted to
                                    accept brokered deposits.

Call report                         A quarterly report of income and financial condition
                                    that banks file with their regulatory agency. The
                                    contents of call reports include consolidated detailed
                                    financial information on assets, liabilities, capital, and
                                    loans to executive officers, as well as income,
                                    expenses, and changes in capital accounts.

CAMELS                              An acronym for performance rating components for
                                    financial institutions: Capital Adequacy, Asset Quality,
                                    Management, Earnings, Liquidity, and Sensitivity to
                                    market risk. Numerical values range from 1 to 5 with
                                    1 being the best rating and 5 being the worst. The
                                    Office of the Comptroller of the Currency (OCC) uses
                                    the CAMELS rating system to evaluate a bank’s
                                    overall condition and performance by assessing each
                                    of the six rating components and assigning numerical
                                    values. OCC then assigns each bank a composite
                                    rating based on its assessment of the overall condition
                                    and level of supervisory concern.

Capital Purchase Program            The Emergency Economic Stabilization Act of 2008,
                                    Pub. L. No. 110-342, 122 Stat. 3267, section 101(a)
                                    authorized Treasury to establish the Troubled Asset
                                    Relief Program (TARP) to, among other things,
                                    purchase troubled assets from financial institutions.
                                    Under this authority, Treasury created a voluntary
                                    program--the Capital Purchase Program in which the
                                    U.S. government, through the Department of the
                                    Treasury, invests in preferred equity securities issued
                                    by qualified financial institutions.

Capital restoration plan            Under the Prompt Corrective Action requirements of
                                    the Federal Deposit Insurance Act, as amended, a


                    Material Loss Review of National Bank of Commerce                   Page 21
                    (OIG-09-042)
                     Appendix 3
                     Glossary


                                     capital restoration plan is to be submitted to the
                                     appropriate federal banking agency by any
                                     undercapitalized insured depository institution. A
                                     capital restoration plan specifies the steps the insured
                                     depository institution is to take to become adequately
                                     capitalized, the levels of capital to be attained during
                                     each year in which the plan is in effect, how the
                                     institution is to comply with the restrictions or
                                     requirements then in effect, the types and levels of
                                     activities in which the institution is to engage, and any
                                     other information that the federal banking agency may
                                     require.

Deferred tax asset                   The deferred tax consequences attributable to
                                     deductible temporary differences and carryforwards. A
                                     deferred tax asset is measured using the applicable
                                     enacted tax rate and provisions of the enacted tax
                                     law. A deferred tax asset is reduced by a valuation
                                     allowance if, based on the weight of evidence
                                     available, it is more likely than not that some portion
                                     or all of a deferred tax asset will not be realized.

Deferred tax consequences            The future effects on income taxes as measured by
                                     the applicable enacted tax rate and provisions of the
                                     enacted tax law resulting from temporary differences
                                     and carryforwards at the end of the current year.

Government-Sponsored                 Financial services corporations created by the U.S. to
Enterprises                          enhance the flow of credit to the agriculture and home
                                     finance sectors of the economy. Fannie Mae, Freddie
                                     Mac, Government National Mortgage Association,
                                     Federal Farm Credit Banks, Agriculture Credit Bank,
                                     Federal Agriculture Mortgage Corporation, and twelve
                                     federal Home Loan Banks are collectively referred to
                                     as government-sponsored enterprises.

Impairment                           Decline in fair value below the amortized cost basis.

Matters requiring                    A bank practice noted during an OCC examination of a
attention                            bank that deviates from sound governance, internal
                                     controls, and risk management principles. The
                                     matters, if not addressed, may adversely impact the

                     Material Loss Review of National Bank of Commerce                 Page 22
                     (OIG-09-042)
                    Appendix 3
                    Glossary


                                    bank’s earnings, capital, risk profile, or reputation, or
                                    may result in substantive noncompliance with laws
                                    and regulations, internal policies or processes, OCC
                                    supervisory guidance, or conditions imposed in writing
                                    or other requests by a bank. Although matters
                                    requiring board attention are not formal enforcement
                                    actions, OCC requires that banks address them. A
                                    bank’s failure to do so may result in a formal
                                    enforcement action.

Merchant processing                 The settlement of electronic payment transactions for
                                    merchants. Merchant processing activities involve
                                    gathering sales information from the merchant,
                                    obtaining authorization for the transaction, collecting
                                    funds from the card-issuing bank, and reimbursing the
                                    merchant.

Other-than-temporary                When it is determined that the impairment is other
Impairment Charges                  than temporary, then an impairment loss must be
                                    recognized in earnings equal to the entire difference
                                    between the investment's cost and its fair value at the
                                    balance sheet date of the reporting period for which
                                    the assessment is made. In periods subsequent to the
                                    recognition of an other-than-temporary impairment
                                    loss for debt securities, an investor must account for
                                    the other-than-temporarily impaired debt security as if
                                    the debt security had been purchased on the
                                    measurement date of the other-than-temporary
                                    impairment. That is, the discount or reduced premium
                                    recorded for the debt security, based on the new cost
                                    basis, would be amortized over the remaining life of
                                    the debt security in a prospective manner based on
                                    the amount and timing of future estimated cash flows.

Permanent Capital                   The sum of a bank’s capital stock and capital surplus
                                    accounts. OCC must certify the increases in a bank’s
                                    permanent capital before the bank can issue additional
                                    capital or reflect the capital change on its financial
                                    statements.

Prompt Corrective Action            A framework of supervisory actions, set forth in
                                    12 U.S.C. §1831o, for insured depository institutions

                    Material Loss Review of National Bank of Commerce                  Page 23
                    (OIG-09-042)
                     Appendix 3
                     Glossary


                                     that are not adequately capitalized. It was intended to
                                     ensure that action is taken when an institution
                                     becomes financially troubled in order to prevent a
                                     failure or minimize resulting losses. These actions
                                     become increasingly severe as a bank falls into lower
                                     capital categories. The capital categories are well-
                                     capitalized, adequately capitalized, undercapitalized,
                                     significantly undercapitalized, and critically
                                     undercapitalized. The Prompt Corrective Action
                                     minimum requirements are as follows:

                                                            Tier 1/
                                       Total                Risk-             Tier 1/
               Capital Category        Risk-Based           Based             Leverage
                                        10% or         and 6% or           and 5% or greater
               Well Capitalizeda
                                        greater              greater
               Adequately               8% or          and 4% or           and 4% or greater
               Capitalized              greater              greater             (3% for 1-rated)
                                        Less           or    Less          or    Less than 4% (except
               Undercapitalized
                                        than 8%              than 4%             for 1-rated)
               Significantly            Less           or    Less          or    Less than 3%
               Undercapitalized         than 6%              than 3%
                                        Has a ratio of tangible equity to total assets that is equal
               Critically
                                        to or less than 2 percent. Tangible equity is defined in
               Undercapitalized
                                        12 C.F.R. § 565.2(f).
               a
                 To be well capitalized, a bank also cannot be subject to a higher capital requirement
               imposed by OCC.

Risk-based capital                   The sum of Tier 1 plus Tier 2 capital.

Structured Investment
Securities                           The term "structured" used in reference to securities
                                     is a common term used in the industry to refer to
                                     many of the products that are part of the
                                     securitization market. In an asset-backed security the
                                     cash flows from the underlying assets (collateral) can
                                     be allocated to investors in different ways. Cash flows
                                     (payment streams) can be "passed-through" directly
                                     to the investors or carved up according to specific
                                     rules and investor demand and thereby creating
                                     "structured" securities. These various structures meet
                                     the needs of different investor types by allowing them
                                     to invest in a product that meets their risk appetite
                                     and collateral and earnings requirements. These


                     Material Loss Review of National Bank of Commerce                          Page 24
                     (OIG-09-042)
                    Appendix 3
                    Glossary


                                    securities include private label mortgage-backed
                                    securities, resecuritizations, and trust-preferred
                                    securities.

Subordinated debt                   Debt that is either unsecured or has a lower priority
                                    than that of another debt claim on the same asset or
                                    property, also called junior debt.

Tangible equity ratio               Tier 1 capital plus cumulative preferred stock and
                                    related surplus less intangibles except qualifying
                                    purchased mortgage servicing rights divided by total
                                    assets less intangibles except qualifying purchased
                                    mortgage servicing rights.

Tier 1 capital                      Common shareholder’s equity (common stock,
                                    surplus, and retained earnings), noncumulative
                                    perpetual preferred stock, and minority interests in the
                                    equity accounts of consolidated subsidiaries.

Tier 2 capital                      Consists of subordinated debt, intermediate-term
                                    preferred stock, cumulative and long-term preferred
                                    stock, and a portion of a bank’s allowance for loan
                                    and lease losses.

Troubled Asset Relief Program       A program established under the Emergency Economic
(TARP)                              Stabilization Act of 2008 (EESA) with the specific
                                    goal of stabilizing the United States financial system
                                    and preventing a systemic collapse. EESA gives TARP
                                    the authority to purchase and make fund
                                    commitments to purchase troubled assets from any
                                    financial institution.




                    Material Loss Review of National Bank of Commerce                    Page 25
                    (OIG-09-042)
                  Appendix 4
                  Chronology of Significant Events




The following chronology describes significant events in the history of National Bank
of Commerce (NBC), including examinations conducted and enforcement actions taken
by the Office of the Comptroller of the Currency (OCC).

7/26/1966         NBC is established under its original name, Bank of Commerce, as
                  an Illinois state bank.

7/13/1967         Bank of Commerce becomes insured by the Federal Deposit
                  Insurance Corporation (FDIC).

9/1/1984          Bank of Commerce converts to a national bank charter and
                  changes to its current name.

2/3/1993          Commerce Bancorp, Inc., acquires NBC for $33,904,000.

3/7/1994-         NBC receives composite CAMELS ratings of 2 for eight
7/1/2002          examination cycles.

5/22/2003         NBC purchased Federal National Mortgage Association (Fannie
10/2/2003         Mae) and Federal Home Loan Mortgage Corporation (Freddie Mac)
                  preferred stock on various dates during the period for a total of
                  $11,021,159.

5/27/2003-        NBC receives composite ratings of 2 for two examinations.
5/05/2004

6/1/2004-         NBC purchases Fannie Mae and Freddie Mac preferred stock on
9/29/2004         various dates during the period for a total of $5,371,926.

8/2004            NBC opens a full-service branch in Addison, Illinois.

4/4/2005-         NBC receives composite ratings of 2 for two examinations.
8/14/2006

4/18/2006-        NBC purchases Fannie Mae and Freddie Mac preferred stock on
5/17/2006         various dates during the period for a total of $8,264,217.

1/17/2007-        NBC purchases Fannie Mae and Freddie Mac preferred stock on
11/21/2007        various dates during the period for a total of $73,497,160.




                  Material Loss Review of National Bank of Commerce            Page 26
                  (OIG-09-042)
             Appendix 4
             Chronology of Significant Events




12/18/2007   OCC begins an examination that is completed on 3/19/2008, with
             composite and CAMELS ratings of 2/222222.
2/5/2008     NBC notifies OCC of an increase in permanent capital. The increase
             comes from a $6 million contribution from NBC’s holding company.

9/7/2008     The Federal Housing Finance Agency places Fannie Mae and
             Freddie Mac into conservatorship.

9/11/2008    OCC District Office transfers NBC to the Special Supervision
             Division in light of NBC’s significant concentration in Fannie Mae
             and Freddie Mac GSE securities and the pending impact on the
             bank’s capital.

9/12/2008    NBC notifies OCC of an increase in permanent capital. The increase
             comes from a $6 million contribution from NBC’s holding company.

9/30/2008    NBC concludes that its investments in GSE securities have a fair
             market value of approximately $4.5 million. NBC recognizes $93.7
             million in other-than-temporary impairment charge associated with
             the GSE securities. Of this impairment charge, approximately $57.4
             million was recorded as a loss on securities on the bank’s income
             statement and approximately $36.3 million was recorded on the
             bank’s balance sheet.

10/6/2008    NBC requests financial assistance from the Department of Treasury
             pursuant to the Emergency Economic Stabilization Act of 2008
             (EESA) which authorized Treasury to establish the Troubled Asset
             Relief Program. NBC’s counsel asks Treasury to purchase the
             bank’s Fannie Mae and Freddie Mac GSE securities for
             approximately $44.5 million to restore the bank to adequately
             capitalized for PCA purposes.

10/14/2008   OCC examiners conduct a targeted examination of NBC’s asset
             quality, liquidity, and capital that was completed on October 17,
             2008, with composite and CAMELS ratings of 5/554554.

10/17/2008   NBC’s counsel reiterates the Bank’s request for financial assistance
             from Treasury in a letter to OCC, FDIC, and Treasury. The letter
             also requests that the bank delay filing the September 30, 2008,
             call report or as an alternative, asks for permission to file without
             recognizing losses sustained from ownership of its GSE securities.


             Material Loss Review of National Bank of Commerce              Page 27
             (OIG-09-042)
             Appendix 4
             Chronology of Significant Events




10/22/2008   OCC’s Director of Special Supervision Division informs the bank
             that OCC cannot permit the bank not to follow the statutory
             requirements for filing call reports and directs NBC to immediately
             develop a capital restoration plan (CRP) with the actions needed to
             restore the bank’s capital.

10/24/2008   NBC submits a CRP. The bank’s sole plan to reach the adequately
             capitalized category was to obtain $44.5 million from Treasury.
             Commerce Bancorp, Inc. submits a request to the Federal Reserve
             Bank of Chicago for $8.7 million in financial assistance through the
             Capital Purchase Program (CPP).

10/29/2008   Treasury’s CPP Manager orally notifies OCC that Treasury did not
             grant NBC’s request to purchase its Fannie Mae and Freddie Mac
             GSE securities for $44.5 million.

             Two Illinois Congressmen jointly request in a letter that Treasury
             provide financial assistance to NBC and coordinate with OCC and
             FDIC to forbear from taking any regulatory actions against the
             bank. According to personnel with the Department’s Office of
             Legislative Affairs, Treasury did not respond to the request.

10/30/2008   NBC files its September 30, 2008, call report which discloses
             negative regulatory capital levels. OCC informs Treasury that it will
             notify NBC of Treasury’s decision not to purchase NBC’s GSE
             securities.

             NBC requests the United States District Court for the Northern
             District of Illinois to direct Treasury to consider its application
             under EESA in a timely manner and a temporary restraining order
             enjoining OCC from appointing a receiver or a conservator until
             Treasury acts on NBC’s EESA application.

10/31/2008   The District Court denies the motion for a temporary restraining
             order.

11/3/2008    OCC notifies NBC that it is critically undercapitalized for PCA
             purposes, instructs NBC to submit an acceptable CRP by
             November 14, 2008, and notifies NBC that its composite CAMELS
             rating has been downgraded to a 5.


             Material Loss Review of National Bank of Commerce              Page 28
             (OIG-09-042)
             Appendix 4
             Chronology of Significant Events




11/6/2008    OCC notifies NBC in a letter that Treasury decided not to grant
             assistance to restore NBC to an adequately capitalized status.

11/14/2008   NBC submits a CRP that relies on financial assistance of
             approximately $42.8 million from Treasury or the FDIC, along with
             a commitment from the bank’s board to raise $10 million following
             the receipt of federal financial assistance, to restore the bank’s
             capital to adequately capitalized for PCA purposes.

11/18/2008   NBC seeks financial assistance from FDIC, asserting that the
             financial assistance the bank requested will be less than the cost of
             its potential receivership.

11/20/2008   NBC responds to FDIC’s questions and provides additional
             information regarding its request for financial assistance.

11/21/2008   NBC’s counsel seeks a capital infusion of $42.8 million from
             Treasury pursuant to any available provision of EESA in a letter to
             OCC. NBC’s letter to OCC notes that Treasury has decided not to
             purchase NBC’s GSE securities.

11/24/2008   OCC forwards NBC’s November 21, 2008, letter and asks Treasury
             again by email about the possibility of financial assistance of $42.8
             million to the bank, given that FDIC estimated the cost of
             resolution in receivership to be $150 million.

12/16/2008   OCC notifies NBC that its CRP did not meet the criteria set forth in
             12 U.S.C. §1831o(e)(2)(C) for accepting a plan.

12/22/2008   NBC responds to FDIC’s questions and provides additional
             information regarding its request for financial assistance.

1/7/2009     NBC again seeks financial assistance from FDIC.

1/8/2009     OCC’s Director of Special Supervision Division sends a letter to the
             Division of Bank Supervision and Regulations of the Board of
             Governors of the Federal Reserve System informing it that OCC has
             determined grounds to appoint FDIC as receiver.




             Material Loss Review of National Bank of Commerce             Page 29
             (OIG-09-042)
            Appendix 4
            Chronology of Significant Events




1/9/2009    FDIC denies NBC’s request for financial assistance because the
            bank’s proposal provided that FDIC assistance would be used
            inappropriately to benefit preexisting shareholders.

            OCC forwards the November 24, 2008, email to Treasury and
            again seeks confirmation from Treasury that it will not be providing
            financial assistance to NBC.

            The Interim Assistant Secretary for Treasury’s Financial Stability
            and Assistant Secretary of the Treasury for International Economics
            and Development respond in an email that NBC is not qualified for
            funds from CPP.

1/16/2009   OCC closes NBC and appoints FDIC as receiver.




            Material Loss Review of National Bank of Commerce             Page 30
            (OIG-09-042)
               Appendix 5
               OCC NBC Examinations and Enforcement Actions




This appendix summarizes the Office of the Comptroller of the Currency’s safety
and soundness and targeted examinations of the National Bank of Commerce that
began in April 2005 through October 2008, and provides information on the
significant results of those examinations. We list the following items contained in
the report: matters requiring attention, recommendations, and suggestions.
Generally, matters requiring attention represent the most significant items requiring
corrective action and are more serious.

                                    Significant safety and soundness matters requiring
Date        CAMELS       Assets     attention, recommendations, and suggestions cited                Enforcement
started     rating     (millions)   in Reports of Examination (ROE) and workpapers                   actions
4/4/2005    2/212322       $389     Matters requiring attention                                      None
                                    •    None Identified.


                                    Recommendations
                                    •   Require the Audit Committee to have a majority of
                                        outside directors.
                                    •   Require the Audit Committee to review the risk
                                        assessment for adequacy.
                                    •   Require the Audit Committee to ensure the items
                                        approved in the Outstanding Audit Findings tickler are
                                        corrected in a timely manner.
                                    •   Conduct annual testing of Landmark Merchant
                                        Solution’s disaster recovery and contingency plan.
                                    •   Expand the monthly high risk business categories.
                                    •   Expand monthly reports to include historic year-end data
                                        for comparison and analysis.
                                    •   Improve earnings.


                                    Suggestions
                                    •   Provide a brief narrative to the Quality Control
                                        Committee to summarize merchant processing activity.
                                    •   Expand the audit scope to include detailed review of
                                        changes made in processing new merchants and risk
                                        management controls.
                                    •   Obtain the most current high-risk merchant listing from
                                        the associations.
8/14/2006   2/212222       $398     Matters requiring attention                                      None
                                    •   None identified.


                                    Recommendations
                                    •   Enhance the Contingency Funding Plan (CFP) and
                                        bank’s processes.
                                    •   Review the CFP to ensure that they are aware of all
                                        possible sources of funds in case of liquidity crisis. The



               Material Loss Review of National Bank of Commerce                                            Page 31
               (OIG-09-042)
                   Appendix 5
                   OCC NBC Examinations and Enforcement Actions




                                         Significant safety and soundness matters requiring
Date           CAMELS         Assets     attention, recommendations, and suggestions cited             Enforcement
started        rating       (millions)   in Reports of Examination (ROE) and workpapers                actions
                                             CFP should be tested, reviewed, and approved by the
                                             Board at least annually.
                                         •    Review the Board of Directors-approved policy limits
                                              for the acceptable change in the investment portfolio.
                                         •    Address the holding company’s ability to draw on the
                                              line of credit from LaSalle or any bank.
                                         •    Update the asset/liability policy to reflect new
                                              members.
                                         •    Update the shareholder’s list.
12/18/2007     2/222222          $423    Matters requiring attention                                   None
                                         •    Improve the Allowance for Loan and Lease Losses
                                              methodology to comply with Interagency Policy
                                              Statement and to address related financial accounting
                                              standards.
                                         •    Appropriately document loan review reports to detail
                                              the analysis performed and support for the credit
                                              rating conclusion.
                                         •    Revise the loan policy to specifically address the
                                              overdraft guidance as illustrated in the Interagency
                                              Joint Guidance on Overdraft Protection Program
                                              bulletin.


                                         Recommendations
                                         •   None identified.
10/14/2008     5/554554          $459    Matters requiring attention                                   Prompt
Targeted                                 •   None identified.                                          Corrective
Examination                                                                                            Action Notice of
                                         Recommendations                                               Critically
                                         •   None identified.                                          Undercapitalized
                                                                                                       issued 11/3/08
                                                                                                       (See page 6)
Source: OCC ROEs, examination workpapers, and NBC’s Call Reports.




                   Material Loss Review of National Bank of Commerce                                            Page 32
                   (OIG-09-042)
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations




We have completed two mandated material loss reviews of failed banks since
November 2008. This appendix provides our recommendations to the Office of the
Comptroller of the Currency (OCC) resulting from these reviews. OCC management
concurred with the recommendations and has taken or planned corrective actions that
are responsive to the recommendations. In certain instances, the recommendations
address matters that require ongoing OCC management and examiner attention.

 Report Title                                        Recommendations to the Comptroller
 Safety and Soundness: Material Loss Review of       Re-emphasize to examiners that examiners must
 ANB Financial, National Association, OIG-09-013     closely investigate an institution’s circumstances
 (Nov. 25, 2008)                                     and alter its supervisory plan if certain conditions
                                                     exist as specified in OCC’s Examiner’s Guide to
 OCC closed ANB Financial and appointed the          Problem Bank Identification, Rehabilitation, and
 Federal Deposit Insurance Corporation (FDIC) as     Resolution.
 receiver on May 9, 2008. At that time, FDIC
 estimated that ANB’s failure would cost the         Re-emphasize to examiners that formal action is
 Deposit Insurance Fund $214 million.                presumed warranted when certain circumstances
                                                     specified in OCC’s Enforcement Action Policy
                                                     (PPM 5310-3) exist. Examiners should also be
                                                     directed to document in the examination files the
                                                     reasons for not taking formal enforcement action
                                                     if those circumstances do exist.

                                                     Reassess guidance and examination procedures
                                                     in the Comptroller’s Handbook related to bank
                                                     use of wholesale funding with focus on heavy
                                                     reliance on brokered deposits and other non-
                                                     retail deposit funding sources for growth.

                                                     Establish in policy a “lessons-learned” process to
                                                     assess the causes of bank failures and the
                                                     supervision exercised over the institution and to
                                                     take appropriate action to address any
                                                     significant weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of       Re-emphasize to examiners the need to ensure
 First National Bank of Nevada and First Heritage    that banks take swift corrective actions in
 Bank, National Association, OIG-09-033              response to examination findings.
 (Feb. 27, 2009)
                                                     Re-emphasize to examiners OCC’s policy on the
 OCC closed First National Bank of Nevada and        preparation of supervision workpapers (i.e,
 First Heritage Bank and appointed FDIC as           workpapers are to be clear, concise, and readily
 receiver on July 25, 2008. As of December 31,       understood by other examiners and reviewers).
 2008, FDIC had recorded an estimated loss of
 $706 million for First National Bank of Nevada
 and $33 million for First Heritage Bank.




                      Material Loss Review of National Bank of Commerce                            Page 33
                      (OIG-09-042)
Appendix 7
Management Response




Material Loss Review of National Bank of Commerce   Page 34
(OIG-09-042)
Appendix 7
Management Response




Material Loss Review of National Bank of Commerce   Page 35
(OIG-09-042)
Appendix 8
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Delores V. Dabney, Audit Manager
Kenneth D. Harness, Auditor in Charge
Fawntrella L. Thompson, Auditor
Rufus Etienne, Auditor
Michelle C. Ruff, Auditor
Larissa Klimpel, Auditor
John B. Gauthier, Auditor
Amnoiphorn Samson, Referencer
Lisa DeAngelis, Referencer




Material Loss Review of National Bank of Commerce     Page 36
(OIG-09-042)
Appendix 9
Report Distribution




Department of the Treasury

        Deputy Secretary
        Office of Strategic Planning and Performance Management
        Office of Accounting and Internal Control

Office of the Comptroller of the Currency

        Comptroller of the Currency
        Liaison Officer

Office of Management and Budget

        OIG Budget Examiner

Federal Deposit Insurance Corporation

        Chairman
        Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

        Chairman and Ranking Member
        Committee on Financial Services

U.S. Government Accountability Office

        Acting Comptroller General of the United States




Material Loss Review of National Bank of Commerce          Page 37
(OIG-09-042)
